No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re Matthew James Leachman, Petitioner

PROOF OF SERVICE
I, Matthew James Leachman, do swear or declare that on this date, September 28, 2021,
as required by Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PA VPERIS and PETITION FOR WRIT OF MANDAMUS on
each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by delivering a properly addressed envelope containing the above
documents to the designated official at the Harris County Jail, with postage to be paid by the
Jail in accordance with facility rules for indigent legal mail.
The names and addresses of those served are as follows:
The Honorable Priscilla R. Owen, Chief Judge of the Fifth Circuit Court of Appeals, 903
San Jacinto Blvd., Room 434, Austin, TX 78701-2450.
Solicitor General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Avenue, N.W., Washington, DC 20530-0001 (pursuant to Sup. Ct. R. 29.4(a)).
I declare under penalty of perjury that the foregoing is true and corje^t.
Executed on September 28, 2021.

Matthdw J. Leachman

